U.S. Department of Commerce                                                                             Final Report IPE – 13531 

Office of Inspector General                                                                                            June 2001 


                                                 TABLE OF CONTENTS


                                                                                                                                  Page


EXECUTIVE SUMMARY ........................................................................................................... i 


INTRODUCTION ........................................................................................................................ 1 


OBJECTIVES, SCOPE, AND METHODOLOGY...................................................................... 1 


BACKGROUND .......................................................................................................................... 2 


OBSERVATIONS AND CONCLUSIONS ................................................................................. 5 


I.        WFO Weather Forecasting and Outreach Efforts Are Generally Effective ..................... 5 


          A. Office generally issues timely and accurate weather warnings and forecasts ............ 5 

          B. Office outreach efforts to emergency managers and other users are effective ......... 10 


II.       Research and Training Activities Need More Attention................................................. 12 


          A. Research efforts have been minimal ......................................................................... 12 

          B. Office has only recently implemented a structured training program ...................... 14 


III.      Greater Regional Oversight of WFO Is Needed ............................................................. 17 


IV.       Dyess Air Force Base’s Radar Availability Is Below Operational Standards ................ 20 


V.        Internal Controls Are Adequate, but Improvements Are Needed in Some Areas .......... 23 


          A.   Most administrative activities are well controlled .................................................... 23 

          B.   IT controls are improving ......................................................................................... 24 

          C.   New station duty manual can be improved............................................................... 27 

          D.   Focal point responsibilities should be better communicated to staff........................ 28 

          E.   Quality control needs to be more systematic ............................................................ 28 


RECOMMENDATIONS............................................................................................................ 31 


AGENCY RESPONSE............................................................................................................... 33 

U.S. Department of Commerce                                                 Final Report IPE – 13531 

Office of Inspector General                                                                June 2001 



                                   EXECUTIVE SUMMARY


Pursuant to the authority of the Inspector General Act of 1978, as amended, the Office of
Inspector General conducted an inspection of the National Weather Service’s (NWS) Weather
Forecast Office (WFO) in San Angelo, Texas. Our fieldwork was conducted from November 13
through 17, 2000. The objective of this inspection was to determine how effectively the San
Angelo WFO (1) delivers warnings, forecasts, and other information to its service users;
(2) coordinates its activities with state and local emergency managers; and (3) manages its
network of observers and volunteer spotters. We also assessed the adequacy of the office’s
management and its internal controls; its compliance with Department, NOAA, and NWS
policies and procedures; and the effectiveness of NWS’s regional oversight. This is the second
in a series of OIG inspections of WFOs.

NWS, an agency within the National Oceanic and Atmospheric Administration, has 121 Weather
Forecast Offices nationwide. Each WFO issues local weather forecasts and warnings of severe
weather—such as tornadoes, severe thunderstorms, floods, hurricanes, and extreme winter
weather—for its assigned counties. The San Angelo office was opened in October 1947 under
the Weather Bureau as a Weather Service Office. In July 1999, the office converted to a
Weather Forecast Office, which currently has a staff of 22 and services a warning area covering
24 counties. At the time of our visit, there was one satellite office in Abilene, but it subsequently
closed on December 19, 2000.

The WFO uses various technology and programs to help protect the citizens in its county
warning area. Radar, satellite, and automated surface observation systems are used to prepare
forecasts and issue warnings for all types of severe weather. NWS commissioned the Advanced
Weather Interactive Processing System in San Angelo on July 6, 2000. This system, which
integrates NWS meteorological and hydrological data with NWS satellite and radar data, is
designed to enable forecasters to prepare and issue more accurate and timely forecasts and
warnings.

In performing our review, we examined pertinent records and documents and interviewed all of
the staff at the San Angelo WFO. We also spoke by telephone with the regional director in Fort
Worth, and interviewed many representatives from the Department and other federal, state, and
local government agencies. We also interviewed individuals outside of government involved in
meteorological activities to obtain their assessment of the services provided by the San Angelo
WFO, as well as to elicit any suggestions they had for improving the WFO’s conveyance of
critical weather information.

We found that the office was effectively providing most services to the public. For example:

The WFO has done a good job of issuing weather forecasts and warnings. The office is
responsible for issuing timely weather forecasts, severe weather and flood warnings, and
advisories in order to inform people in its county warning area about anticipated weather events
and protect them and their property from the dangerous effects of severe and hazardous weather.


                                                  i
U.S. Department of Commerce                                                  Final Report IPE – 13531 

Office of Inspector General                                                                 June 2001 



Office performance statistics indicate that San Angelo personnel have generally been able to
accomplish this goal for a variety of reasons, including the commitment of the staff, its “short
term, long-term” approach to forecasting, and its effective use of the Console Replacement
System to reach its users. The only area of concern we found with regard to the office’s
forecasting is that its Probability of Precipitation statistics have not kept pace with the Southern
Region average (see page 5).

Office outreach efforts to emergency managers and other users are effective. We spoke
with numerous public officials and emergency managers from several counties concerning the
type and quality of their interaction with the San Angelo WFO and elicited their views on the
quality of services the WFO provides. Without exception, the officials had favorable comments
about their interaction with WFO staff and the quality of services they received (see page 10).

However, we also found a number of managerial, administrative, and operational deficiencies
that require prompt attention by NWS and WFO managers.

The WFO has conducted few local studies. According to WFO officials, the office has
completed five research studies during the last two years. The Science Operations Officer
(SOO) prepared three of these studies, although each meteorologist has that function in his or her
performance plan. The office did not have an adequate research planning process or a detailed
plan outlining studies that were to be completed. In addition, some staff members said that they
did not undertake research projects because they felt intimidated by WFO management’s harsh
public criticism of their prior draft studies, while others suggested that many of the studies
previously submitted were of poor quality and that the staff needed further guidance and training.
The WFO’s meteorologist-in-charge (MIC) should continue to encourage the staff to participate
further in local studies and provide constructive criticism when needed. The MIC and SOO
should work with the staff to develop viable research topics and make themselves available to
help staff in their efforts (see page 12).

Until just before our visit, the WFO did not have a structured training program. While
some office employees said that they have received sufficient training, most believed that a more
systematic and individual approach to training was needed. The WFO’s staff believed that the
training officer concentrated primarily on computer-related issues and has had little time to
address specific training needs. The MIC needs to clarify to all staff members how the new
professional development plans will be used and interpreted during fiscal year 2001 and ensure
that appropriate training, based on their plans, is provided to WFO staff (see page 14).

Greater regional oversight of the WFO is needed. Despite the regional staff’s admitted
knowledge of some of the issues and problems noted in the report, certain problems have
persisted—seemingly unaddressed—for far too long. For example, (1) office personnel cited
frequent and lingering conflicts between management and staff; (2) until just before our visit, the
station duty manual had not been updated for almost 7 years; and (3) the office’s Probability of
Precipitation statistics have not kept pace with the Southern Region average. We believe that in
addition to program reviews, regional managers’ visits should address other priority issues, such
as management and employee concerns, and, where appropriate, corrective actions should be


                                                  ii
U.S. Department of Commerce                                               Final Report IPE – 13531 

Office of Inspector General                                                              June 2001 



taken. Lastly, WFO staff and management should be encouraged to more candidly discuss with
regional managers those lingering concerns they have that cannot be or are not addressed at the
local level (see page 17).

Dyess Air Force Base’s radar availability is below operational standards. The operational
availability of the Air Force radar, on which the San Angelo office depends for complete
coverage of its warning area, is below NWS, Department of Defense, and Department of
Transportation standards. During calendar year 2000, the Air Force radar was available 92.2
percent of the time, which is below the 96.0 percent minimum operating standard for all Next
Generation Weather Radars. Both Defense and NWS officials noted that delays in the receipt of
repair parts is the primary reason for the below-standard radar availability. NWS should
continue to work with Defense officials to facilitate the timely repair of radar equipment (see
page 20).

Most administrative activities are well controlled. We reviewed office policies and
procedures for inventory, supplies, bankcards, procurement, time and attendance, travel, and
security. We found adequate controls over all of these areas and well-maintained
documentation. It should be noted, however, that some employees expressed concern about the
propriety of how some staff report their time and attendance. Although we found no documented
evidence of time and attendance abuse, the regional office should closely monitor this situation
to ascertain what, if any, changes or additional safeguards are needed to better document time for
WFO employees who are not working on a rotational shift (see page 23).

The WFO has only recently implemented NWS’s information technology security policies.
The WFO did not designate its information technology security officer until September 2000,
and did not prepare a security plan, risk analysis, and disaster recovery plan until October.
Before the security officer was designated, no one had been periodically re-evaluating security
levels and ensuring that only approved hardware and software were installed. The MIC and the
security officer need to comply with their newly developed security plans by (1) periodically
revising system passwords; (2) preparing an updated software inventory; (3) testing the office’s
backup system and contingency procedures in case of system failures as soon as possible;
(4) sending the Information Technology Security Plan, Risk Analysis, and Disaster Recovery
Plan to the NWS security officer, NOAA security officer, and the Department of Commerce
Security Manager; and (5) revising the risk analysis to better document relative vulnerabilities
and threats to the office’s systems (see page 24).




                                               iii
U.S. Department of Commerce                                              Final Report IPE – 13531 

Office of Inspector General                                                             June 2001 





New station duty manual can be improved. After we announced our inspection in September
2000, San Angelo personnel updated the March 1994 station duty manual. Before this very
recent update, the office lacked a current station duty manual to help ensure that the WFO could
address regular operational and emergency needs. After reviewing the new manual, some
employees expressed their concerns to us that they still did not understand some tasks, such as
how they would shut down all computer systems in an orderly fashion. As appropriate, the new
manual should be reviewed to identify opportunities where it could be further strengthened and
where the roles and responsibilities of the staff for various activities could be more clearly
defined (see page 27).

Focal point responsibilities have not been effectively communicated to staff. Each WFO is
responsible for issuing forecasts and warnings and maintaining equipment. All office personnel
perform or support these tasks through numerous “focal point” duties, such as fire weather
duties, property management, office intranet maintenance, information technology security,
cooperative observer coordination, and forecast quality control. San Angelo personnel had not
been officially tasked with all primary and secondary focal point duties until shortly before our
inspection of the office. During our visit, we found that some office personnel were unaware of
who their backups were or unaware that they had been assigned backup responsibilities. Without
a clear assignment of responsibilities, some staff were unprepared to be backups. The MIC
needs to ensure that all office employees understand and are prepared to handle each of their
primary and secondary focal point duties (see page 28).

Quality control needs to be more systematic. The San Angelo staff were not consistently
performing systematic quality control reviews of office products before and after they were
issued. As a result, some office products have been issued with improper information, such as
watches and warnings containing improper meteorological codes. While the overall quality of
office products we reviewed appeared adequate, staff acknowledged that the accuracy and
completeness of products can be improved. The MIC needs to emphasize to all forecasters and
hydrometeorological technicians that products must be reviewed, and implement an ongoing
quality control system (see page 28).

On page 31, we offer a series of recommendations to the Assistant Administrator of the National
Weather Service to address our concerns.



In its written response to our draft report, NOAA took exception to a number of our observations
and recommendations. For most of those recommendations with which NOAA took exception,
NOAA was primarily concerned that what was being recommended was already in practice at
the San Angelo WFO or the regional office in Fort Worth. We disagree with several of the
agency’s positions, as noted on pages 13, 19, 24, and 30.




                                               iv
U.S. Department of Commerce                                            Final Report IPE – 13531 

Office of Inspector General                                                           June 2001 



NOAA’s written response also provided clarification on several issues. Where appropriate, we
adjusted the language in our draft report in response to NOAA’s comments and supporting
documentation provided subsequent to NOAA’s response.




                                              v
U.S. Department of Commerce                                                Final Report IPE – 13531 

Office of Inspector General                                                               June 2001 



                                       INTRODUCTION 



Pursuant to the authority of the Inspector General Act of 1978, as amended, the Office of
Inspector General conducted an inspection of the National Weather Service’s (NWS) Weather
Forecast Office (WFO) in San Angelo, Texas.

Inspections are special reviews that the OIG undertakes to provide agency managers with timely
information about operational issues. One of the main goals of an inspection is to eliminate
waste in federal government programs by encouraging effective and efficient operations. By
asking questions, identifying problems, and suggesting solutions, the OIG hopes to help
managers move quickly to address problems identified during the inspection. Inspections may
also highlight effective programs or operations, particularly if they may be useful or adaptable
for agency managers or program operations elsewhere. This inspection was conducted in
accordance with the Quality Standards for Inspections issued by the President’s Council on
Integrity and Efficiency. Our fieldwork was conducted from November 13 through 17, 2000.
During the review and at its conclusion, we discussed our findings with the meteorologist-in
charge (MIC) of the San Angelo WFO, the director of NWS’s Southern Region, the Assistant
Administrator for NWS, and other NOAA senior managers.


                       OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of this inspection was to determine how effectively the San Angelo WFO
(1) delivers forecasts, warnings, and other information to its service users; (2) coordinates its
activities with state and local emergency managers; and (3) manages its network of observers
and volunteer spotters. We also assessed the adequacy of the office’s management and its
internal controls; its compliance with Department, NOAA, and NWS policies and procedures;
and the effectiveness of regional oversight. This is the second in a series of OIG inspections of
WFOs.

In performing our review, we examined pertinent records and documents and interviewed all of
the staff at the San Angelo WFO. We also spoke by telephone with the regional director in Fort
Worth, and interviewed many representatives from the Department and other federal, state, and
local government agencies. We also interviewed individuals outside of government involved in
meteorological activities to obtain their assessment of the services provided by the San Angelo
WFO, as well as to elicit any suggestions they had for improving the WFO’s conveyance of
critical weather information.




                                                 1

U.S. Department of Commerce                                                             Final Report IPE – 13531 

Office of Inspector General                                                                            June 2001 



                                                BACKGROUND


The National Weather Service, an agency within the National Oceanic and Atmospheric
Administration, has 121 Weather Forecast Offices nationwide. Each office issues (1) local
forecasts, such as periodic zone forecasts and (2) warnings of severe weather—such as
tornadoes, severe thunderstorms, floods, hurricanes, and extreme winter weather for their
assigned counties. The offices, where applicable, also support NWS’s marine, aviation, and
climatic data collection programs and prepare guidance for the fire weather program, supporting
federal lands management and wildfire control. All U.S. counties are assigned to specific WFOs
for warning purposes. The offices are responsible for effectively using advanced meteorological
technology to issue weather predictions and continue to improve the timeliness and accuracy of
forecasts and severe weather and flood warnings to the public.

The San Angelo office opened October 1947 under the Weather Bureau as a Weather Service
Office. At that time, the office then had six full-time employees, who issued local weather
forecasts and severe weather warnings for 14 west central Texas counties. In July 1999, the San
Angelo office “spun-up,” a term used as part of NWS’s modernization program to identify
Weather Service Offices1 that were expanded to become WFOs with increased staff and
responsibilities. (See Figure 1 for a photo of the current San Angelo WFO.)




        Figure 1: NWS Weather Forecast Office, San Angelo, Texas




1
    Weather Service Offices were generally smaller in staff size and covered a smaller warning area than WFOs.


                                                          2

U.S. Department of Commerce                                               Final Report IPE – 13531 

Office of Inspector General                                                              June 2001 



The WFO currently has a staff of 22, including a management team consisting of a
meteorologist-in-charge, a warning coordination meteorologist, a science operations officer, a
data acquisition program manager, an electronics system analyst, and an administrative assistant.
The remainder of the staff consists of five lead forecasters, six journeyman forecasters, and five
hydrometeorological technicians. The WFO’s fiscal year 2001 operating budget, including its
annual lease but excluding personnel costs, is $205,723. At the time of our fieldwork, the WFO
had a satellite office in Abilene, Texas, staffed by one hydrometeorological technician, but that
office was closed on December 19, 2000, and the employee retired.

The San Angelo WFO’s county warning area includes 24 counties in west central Texas (as
shown in Figure 2). The WFO is located in NWS’s Southern Region. The regional office, based
in Fort Worth, is responsible for 31 WFOs.




Figure 2: Texas WFOs' County Warning Areas




                                                3

U.S. Department of Commerce                                               Final Report IPE – 13531 

Office of Inspector General                                                              June 2001 



The WFO uses various technology and programs to help protect the citizens in its county
warning area. Radar, satellite, and automated surface observation systems are used to prepare
forecasts and issue warnings for all types of severe weather. NWS commissioned the Advanced
Weather Interactive Processing System (AWIPS) in San Angelo on July 6, 2000. AWIPS, an
interactive computer system that integrates NWS meteorological and hydrological data with
NWS satellite and radar data, is designed to enable forecasters to prepare and issue more
accurate and timely forecasts and warnings.

To effectively provide early warnings and collect important climatological data, the WFO must
rely on its many partners. State and local emergency managers are vital components of the
WFO’s efforts to disseminate critical weather information to the public, while the WFO plays an
important role in the state and local officials’ efforts to keep abreast of severe weather events.
Other partners include media representatives, and Skywarn and Cooperative Observer
volunteers.

The office’s Skywarn program, part of a nationwide effort, trains volunteer spotters to provide
the office and the San Angelo community with timely and accurate eyewitness severe weather
reports. The Cooperative Observer program uses volunteers to provide daily weather
measurements, including rainfall and snowfall amounts. The meteorological community
considers both programs critical in verifying and collecting data to improve forecast models and
in recording accurate climatic data. After developing weather forecasts and obtaining critical
information from its partners, the office disseminates that information to the general public
through its partners, NOAA weather radio, the Internet, and other means.




                                                4

U.S. Department of Commerce                                                               Final Report IPE – 13531 

Office of Inspector General                                                                              June 2001 



                                  OBSERVATIONS AND CONCLUSIONS



I.          WFO Weather Forecasting and Outreach Efforts Are Generally Effective

As part of our review, we examined the San Angelo WFO’s performance and other statistics that
indicate to some degree the office’s effectiveness. We also interviewed the office’s staff and
numerous public officials who work closely with them. For example, we spoke with emergency
managers in several counties concerning the type and quality of their interaction with the San
Angelo WFO and elicited their opinions on the quality of services the WFO provides. Without
exception, these officials had favorable remarks about the services received from the WFO.

A.          Office generally issues timely and accurate weather warnings and forecasts

The San Angelo WFO has done a good job of issuing forecasts and severe weather warnings,
with the exception of its Probability of Precipitation forecasts. The office is responsible for
issuing timely forecasts, severe weather and flood warnings, and advisories in order to inform
people in its county warning area about anticipated weather events and protect them and their
property from the dangerous effects of severe and hazardous weather. Office performance
statistics indicate that the San Angelo WFO has generally been able to accomplish its mission for
a variety of reasons, including the commitment of the staff, its “short-term, long-term” approach
to forecasting, and its effective use of the Console Replacement System to reach its users.

San Angelo WFO’s verification statistic are generally good, with one exception

Each WFO has two key areas of responsibility: severe weather products, such as thunderstorm
and tornado warnings, and public forecast products, such as zone forecasts. The San Angelo
WFO’s performance statistics show that the office is generally issuing timely and accurate
weather forecasts and severe weather products.

For its severe weather products, the lead-time,2 False Alarm Ratio,3 and the Probability of
Detection4 performance measures are very important. For the period January 1998 through
December 2000, the office’s False Alarm Ratio and Probability of Detection were better than the
average of all Southern Region offices and the San Angelo WFO’s fiscal year 2000 targets (see
Table 1), as was its lead time for severe events.


2
    Lead time is the interval between when a warning is issued and when an event reportedly occurs.
3
 The False Alarm Ratio is the fraction of all warnings that are unverified by office personnel. A high ratio indicates
that an office is issuing warnings of events that do not occur.
4
The Probability of Detection shows the fraction of all severe events (i.e., tornadoes and severe thunderstorms) for
which warnings were issued. Attempting to achieve a high Probability of Detection by issuing more warnings
would tend to have the undesirable effect of increasing the False Alarm Ratio.



                                                           5

U.S. Department of Commerce                                                             Final Report IPE – 13531 

Office of Inspector General                                                                            June 2001 



Table 1: Comparison of Severe Weather Performance Indicators
             Indicator                  San Angelo          Regional Average           WFO FY 2000 Target
False Alarm Ratio                                  .495                       .508                              .75
Probability of Detection                           .897                       .843                              .78
Lead Time                                 25.3 minutes              17.8 minutes                               13.5

With regard to the WFO’s public forecasting, the office issues two zone forecasts every day,
including forecasts for the different parts of its county warning area. Each WFO’s area of public
forecast responsibility is divided into zones,5 and WFOs issue public forecasts for each zone
area. Zone forecasts include the temperature range, Probability of Precipitation (POP),
precipitation type, cloud amount, snow amount, and wind direction and speed. We reviewed San
Angelo’s zone forecasts from May 15 to June 15, 2000, and found that all had been issued before
or at their scheduled times. Most of the office’s public forecast performance measures, such as
temperature accuracy and zone forecast statistics, indicate that the office is providing timely and
accurate forecasts.

The staff attribute much of their success to, among other things, their verification efforts. The
Weather Service Operations Manual provides WFOs with general requirements for the quality
control of all products, including those for severe storms.6 Specifically, quality control of
products is to be done before products are issued to ensure correct information, format, and
spelling. After issuing severe thunderstorm and tornado warnings, WFOs should provide quality
control through verification7 and product review procedures. The WFOs collect information
about the actual weather from trained spotters and cooperative observer sites to verify the
accuracy of the warnings. This verification creates a baseline of skill or accuracy against which
later changes in forecast procedures and products can be measured. It also helps NWS officials
and staff measure NWS performance; answer congressional, media, and other requests for
information; publish a historical climatological record (Storm Data); monitor trends; and
improve forecaster performance.

San Angelo personnel emphasized that verification is important and helps to improve their
forecasting efforts. Consequently, they dedicate significant resources to verification during and
immediately after storms. Such efforts have contributed to more accurate forecasting because
they are able to increase their knowledge of San Angelo’s climatology. Office personnel
mentioned other factors that also have contributed to better forecasting and verification,

5
    “Zone and Local Forecasts,” Chapter 11, Weather Service Operations Manual.
6
 “Severe Local Storm Watches, Warnings, and Statements,” Chapter C-40, Weather Service Operations Manual.
“National Watch/Warning Verification Program,” Chapter C-72, Weather Service Operations Manual.
7
 NWS determines how well it handles its forecasting and severe storms warnings through its verification process,
which essentially matches warnings to actual weather observations and compiles statistical results of forecasting
performance.



                                                          6

U.S. Department of Commerce                                                                Final Report IPE – 13531 

Office of Inspector General                                                                               June 2001 



including more effective recruiting of spotters; greater reliance on amateur radio networks; and
improved coordination with state and local emergency managers. As a result of the office’s
efforts, the major verification performance measures show an office that is issuing generally
timely and accurate forecasts and warnings.

Unfortunately, the office’s POP forecast statistics, yet another performance measure, have not
kept pace with the model forecast guidance8. POP forecasts document the likelihood, expressed
as a percentage, that measurable precipitation (0.01 inch or more) will occur at any point within a
specified forecast area (usually a county or group of counties) over a specific period of time
(typically 12 hours).9 Forecasters prepare POP forecasts from meteorological model forecasts,
their knowledge of local climatology, and their own experience. POP forecasts are compared to
model forecasts to determine to what extent WFO-issued forecasts were more accurate than
model forecasts. We found that the San Angelo office was the only Southern Region office from
April through September 200010 that had fewer POP forecasts correct than its model forecasts,
and did not improve on its model forecasts for the San Angelo data collection area.11

POP forecasts, which range between 0 and 100 percent, are verified on a point basis over a
period of time using rain gages assigned to each WFO. Although gages will not measure every
precipitation event, they will measure the percentage of time that measurable precipitation hit the
rain gage when each POP level is forecast. If the percentage of times measurable precipitation
occurs is significantly above or below that POP level, forecasters are either under or over
forecasting and reducing service to WFO users. NWS officials told us that each office should
have more POP forecasts correct than the model forecasts, and positively improve on each model
forecast.

NWS headquarters and regional personnel cited several possible reasons for San Angelo’s POP
statistics being low, including the following: (1) staff may be inexperienced, (2) staff may be
poorly trained, (3) the MIC or staff may have a bias toward forecasting or not forecasting rain,
(4) staff may not know the local climatology, and (5) office may be going through a drought or
near-drought conditions.


8
 Model forecast guidance refers to statistically driven forecast guidance. This guidance is derived from the
Computer Forecast Model and local climatology and is often used as a first guess for the local forecaster. It also
provides a good baseline standard upon which to judge forecast skill.
9
 Probability of Precipitation (POP), Gregory E. Jackson, December 2000. The value of the POP has no direct
relationship to the amount of rain that may occur, despite the belief that higher POP values would imply greater
precipitation accumulation. For example, as little as 0.01 of precipitation may occur with a 100 percent POP value
and heavy precipitation may occur with a 20 percent value.
10
     We chose this period because it was the most recent available information from NWS.
11
 The average southern region office improved their forecasts (based on model forecasts) by 5 percent compared to
San Angelo, which had a -5.5 percent improvement for April through September 2000 for the San Angelo data
collection area. However, POP statistics for the Abilene area showed a 14 percent improvement for the same period.



                                                          7

U.S. Department of Commerce                                                             Final Report IPE – 13531 

Office of Inspector General                                                                            June 2001 



NWS personnel were concerned that San Angelo forecasters have not consistently outperformed
the model forecasts. Forecasters at San Angelo complained that the MIC has told them for the
last two years to reduce their POP forecasts because the area is experiencing a drought. From
April through September 2000, the office’s forecasters underforecast the precipitation that
actually occurred. Southern Region and San Angelo management need to determine the cause or
causes for the office’s negative POP statistics and take corrective actions, if necessary.



In their response, agency officials stated that the WFO’s POP statistics are good and imply that
no action is necessary. Their response also stated that the OIG focused on precipitation forecast
verification statistics only for San Angelo and not Abilene.

We reviewed data for both the San Angelo and Abilene data collection sites and found that the
percent of forecasts correct for both San Angelo and Abilene was below guidance. The data we
reviewed showed that the percent of forecasts correct for San Angelo was 94.3 versus the
guidance percentage of 95.1, and for Abilene the percent correct was 94.2 versus the guidance
percentage of 94.6. Although the deficiencies do not appear significant, as noted above, San
Angelo was the only WFO of 31 WFOs in the region that had fewer POP forecasts correct than
its model forecasts and did not improve on its model forecasts for the San Angelo data collection
area. Thus, we recommend that the agency take corrective action if NWS officials find the noted
differences warrant such actions.

Corrections to a few technical terms and descriptions were made in response to NOAA’s
comments and as appropriate.

Short-term, long-term forecast approach meets WFO’s needs

Forecast offices have traditionally been assigned two forecasters, one to maintain the public
forecast desk and the other to maintain the aviation forecast desk. While each forecaster has
specific products to issue during a shift, each also oversees weather events for their desk. Instead
of using this typical public and aviation approach to forecasting,12 the San Angelo WFO uses a
short-term, long-term approach. This approach divides the workload according to weather time
rather than program area or products to better address immediate and long-term weather events.13

12
  A typical forecast shift includes one public and one aviation forecaster, and a hydrometeorological technician or
meteorological interns. Both the public and aviation forecasters have specific programs and forecast schedules to
maintain, such as public zone forecasts and airport forecasts. These two forecasters often perform comparable
reviews and analyses, issuing forecasts for concurrent time frames and geographical areas. However, while
preparing these types of forecasts, it can be disruptive to issue detailed forecasts for immediate severe weather
events. The hydrometeorological technician or meteorological intern receives data from different sources, interacts
with emergency managers and others during severe weather events, operates the unit control position of the office’s
radar, and issues forecasts over the NOAA Weather Radio.
13
 Short-Term Forecast Tools and Concepts in a Modern NWS Forecast Office, Dennis H. McCarthy, David L.
Andra, Jr., and James K. Purpura, NWS, 1996.



                                                         8

U.S. Department of Commerce                                                Final Report IPE – 13531 

Office of Inspector General                                                               June 2001 



The San Angelo office has used the short-term, long-term approach to forecasting since late
1995.

San Angelo personnel stated that there are multiple advantages to the short-term, long-term
approach. For example, all forecasters receive cross-training in public and aviation forecasting;
the short-term forecaster on a eventless shift should have time for ancillary activities, such as
training or research; and journeymen forecasters get to enhance their careers by making
meaningful weather decisions. Most importantly, because of enhanced communications between
short-term and long-term forecasters, forecasts and warnings are normally fully discussed by all
team members, thereby creating better and more timely products.

The Console Replacement System is generally well maintained despite some problems

NOAA Weather Radio is a nationwide network of radio transmitters broadcasting continuous
weather information directly from WFOs across the country. The Radio broadcasts NWS
watches, warnings, forecasts, and other hazard information 24 hours a day. The Console
Replacement System (CRS) is a relatively new, personal-computer-based broadcasting console
installed at each NWS office that automatically translates written NWS forecasts and warnings
into synthesized-voice broadcasts over NOAA Weather Radio. CRS is designed to provide more
efficient broadcasts over the NOAA Weather Radio.

Before CRS, San Angelo’s hydrometeorological technicians would manually record the office’s
forecasts and current weather information for each transmitter area. Each forecast and warning
had to be written, printed, edited, and then taped for broadcast. The former technology used by
NWS offices had limited programming variability and locked messages into a repetitive
sequential order. CRS allows more control of data and enables multiple warnings to be recorded
and transmitted immediately to different areas.

Despite CRS’s advantages, San Angelo’s users and staff had two complaints about the new
system. First, users told us that they found the computer voice of the new system annoying and
at times difficult to understand. Although CRS uses a text-to-speech voice synthesis, it is a
computer voice and not a human voice. In a recent survey of about 1,100 users conducted by the
southern region, their biggest complaint was the poor quality of the CRS automated voice. NWS
has initiated a Voice Improvement Project to address such concerns. The new voicing system’s
scheduled nationwide implementation is early to mid-2002.

San Angelo’s users and staff also complained that the radio broadcasts of the office’s forecasts
and other products are too long and difficult to manage. With five transmitters, San Angelo
personnel have five loops14 of the office’s short-term and long-term forecasts to maintain. Each
loop may be over 10 minutes long, which users told us is too long. They stated that watches and
warnings might take several minutes to hear when they are placed on the loop. Users also stated
during the recent southern region survey that WFOs need to update their severe weather
statements on each loop more frequently. The office’s hydrometeorological technicians told us

14
     A loop is a repeated broadcast of the WFO’s forecasts and warnings.


                                                           9

U.S. Department of Commerce                                                        Final Report IPE – 13531 

Office of Inspector General                                                                       June 2001 



that oversight of the five loops even during relatively calm weather consumes a great amount of
time. They stated that the workload can become overwhelming during threatening weather
conditions, and the priority for updating the office’s five loops is not clear. The office shift
supervisor needs to provide the hydrometeorological technician in charge of CRS with a priority
list of loops to change during severe weather. The staff should also look to reduce the length of
the loops where appropriate.

B.      Office outreach efforts to emergency managers and other users are effective

State and local emergency managers in Texas help citizens in their communities prepare for
potential natural disasters, such as floods, tornadoes, and other emergencies, that may affect
public safety. WFO staff are responsible for working with these managers to help increase
public responsiveness to warnings and critical weather, better prepare customers and partners for
extreme weather events, develop and strengthen existing partnerships, and increase customer
feedback to enhance NWS services.

Without exception, the state and local officials with whom we met spoke highly of the
cooperation and service of the San Angelo WFO. According to state and local emergency
managers we interviewed, San Angelo WFO officials make themselves available to discuss
severe weather forecasts and provide assistance over and above the call of duty. In addition to
being generally pleased with the timeliness and quality of the office’s forecasts and warnings, the
emergency managers applauded the WFO’s outreach efforts. For example, several county
emergency managers noted that the San Angelo staff loaned them their Emergency Managers
Weather Information Network (EMWIN)15 equipment for evaluative purposes. Although few
emergency managers in San Angelo’s county warning area employed the system, the WFO’s
staff actively promoted EMWIN. In fact, the emergency manager in Abilene, who had earlier
received the system on loan from the WFO, recently purchased EMWIN for the county.

In November 1999, the NWS published its Fiscal Year 2000 Outreach Action Plan. The plan
outlines steps various NWS components, including the WFOs, should consider in accomplishing
their outreach goals. The San Angelo WFO and its partners work well together in pursuing these
goals.

The office incorporated an aggressive outreach effort in its annual operating plan. Our review of
the various documented activities during fiscal year 2000 showed that the office is implementing
most of the plan. For example, the office conducted over 20 spotter training sessions with nearly
800 participants. WFO staff also presented numerous safety talks before various clubs, groups,
and committees. In addition, they took time to visit schools to increase students’ awareness of
meteorology and weather safety, and to act as judges in school science fairs. Lastly, tours of the
WFO are provided to school groups, emergency managers, and media representatives. We met
with a number of representatives from organizations who have had contact with the San Angelo

15
   EMWIN is hardware and software that allows users to receive a live stream of weather and other critical
emergency information. EMWIN's present methods in use or under development for disseminating the basic data
stream include radio, Internet, and satellite.


                                                     10 

U.S. Department of Commerce                                               Final Report IPE – 13531 

Office of Inspector General                                                              June 2001 



WFO, including the director of the “Summer 2000 Kids College” at Angelo State University.
This 10-hour program was geared toward increasing weather awareness among elementary
school students. The director of the program thought so highly of the WFO’s participation in the
program that she recommended the program be continued and expanded to include adults.

The office also has a good relationship with media representatives. Good relations with the
media are important because the media is a key element in the WFO’s outreach and information
dissemination efforts. The media representatives with whom we spoke thought very highly of
the services and responsiveness of the WFO. Although some were meteorologists themselves,
they valued the insight and professional opinions that the staff at the WFO provided. The staff in
San Angelo gave about 25 interviews during fiscal year 2000 to representatives of television,
radio, and print media on various subjects, including the Skywarn and Cooperative Observer
programs, Severe Weather Awareness Week, and the WFO’s general services and operations.

The office’s outreach efforts have been effective in improving citizens’ awareness of weather
terminology, severe weather risks and precautions, and NWS products and services in the San
Angelo county warning area. In addition, the efforts have allowed the WFO to form excellent
relations with emergency officials, the media, and schools—relations that are important to
enhancing the office’s public awareness activities.




                                               11 

U.S. Department of Commerce                                                      Final Report IPE – 13531 

Office of Inspector General                                                                     June 2001 



II.     Research and Training Activities Need More Attention

Although the office is generally effective in providing its core programs and services, we found
that some of its non-core activities receive little attention. Local studies conducted by staff
meteorologists are considered important to improving techniques and procedures for forecasting.
However, the staff in San Angelo has done little research. Also, the office only recently
developed a structured training program for meteorologists, as required by NWS. These two
areas are important because they are geared toward improving the meteorological techniques and
the staff’s understanding of and ability to address forecasting problems.

A.      Research efforts have been minimal

In its “Strategic Plan for Weather, Water, and Climate Services 2000–2005,” NWS states that:

        “Sound science and innovative technologies are the foundation of NWS
        product and service quality. Improving products and services to meet
        customer and partner needs in the future is critically dependent on providing a
        well trained work force with a continual infusion of new and proven scientific
        ideas and technological systems.”

To that end, meteorologists in the office are tasked in their performance plans to conduct or
participate in local studies and developmental projects designed to capitalize on or incorporate
the benefits of new science, technology, and local techniques into the WFO’s operations.

Local research by staff in WFOs has often yielded significant findings and improvements for not
only the WFOs where the research is conducted, but also for NWS in general. For example,
research efforts in the Raleigh WFO (the subject of an earlier OIG inspection)16 have resulted in
a better understanding of forecast problems found in the Southeast and the Carolinas, such as
cold air damming, mixed precipitation, and coastal flooding. Research done by the Raleigh
WFO has resulted in applications that have helped NWS meteorologists better forecast various
meteorological phenomena.

In San Angelo, staff have also conducted some interesting studies, including the effect of
moisture on daytime heating and the effects of population density on severe storm warning
verification. Unfortunately, according to WFO officials, although the office has completed five
research studies over the past two years, as illustrated in Table 2, the SOO conducted three of the
studies.




16
 Raleigh Weather Forecast Office Provides Valuable Services but Needs Improved Management and Internal
Controls, Final Inspection Report No. IPE-12661, Office of Inspector General, September 2000.


                                                    12 

U.S. Department of Commerce                                                 Final Report IPE – 13531 

Office of Inspector General                                                                June 2001 



Table 2
          Research Studies Completed in Last Two Years                              Year
El Nino or La Nina?                                                                  2000
The Effect of Moisture on Daytime Heating                                            2000
Probability of Precipitation                                                         2000
Effects of Population Density on Severe Storm Warning Verification                   2000
Annual and Monthly Average Precipitation 1961–90                                     1999

The office’s Science and Operations Officer is responsible for technology transfer and
development activities, which includes developing, leading, and conducting local studies and
advising WFO staff during their participation in the studies. The SOO should also identify and
formulate hypotheses for these specific study efforts, assign projects to staff, and evaluate study
results for potential application at the WFO.

The office does not have an adequate research planning process or a detailed plan outlining
studies that were to be completed. In addition, some of the staff said they felt intimidated by
WFO management’s harsh criticism of prior draft studies in open forums, while others suggested
that many of the studies previously submitted were of poor quality, and the staff needed further
guidance and training.

Many San Angelo staff thought the WFO could be one of the best offices in the Southern Region
if it paid greater attention to research. They stated that with few local studies, the office’s
“infusion of new and proven scientific ideas and technological system” is not as swift as it could
be. Recently, the MIC developed professional development plans for each employee that include
research goals for meteorologists. The MIC should continue to encourage the staff to participate
further in local studies and provide constructive criticism when needed. The MIC and SOO
should work with the staff to develop viable research topics and make themselves available to
help staff in their efforts.



NOAA did not concur with our recommendation to develop a detailed research plan and specific
project assignments to encourage the WFO’s staff to participate in local studies and research.
NOAA officials emphasized that the WFO is “an operational forecast office, not a research
office.” Additionally, the agency’s response states, “the IG inspectors took an incorrectly narrow
definition of the phrase ‘local studies and developmental projects’ and, consequently, failed to
give the San Angelo staff credit for many technology infusion and other projects in which they
have been involved.” It goes on to suggest that other projects, such as the AWIPS focal point’s
tasking to implement system patches and configure AWIPS software, should have been
considered research in this section. The response also mentions the staff’s development of
manuals and “help binders,” an annual severe weather awareness brochure, and the station’s
semiannual cooperative program newsletter as important projects.



                                                 13 

U.S. Department of Commerce                                                 Final Report IPE – 13531 

Office of Inspector General                                                                June 2001 



Local research conducted by WFO staff serves a number of useful purposes. It is a platform for
the staff to develop innovative processes to address either unique problems encountered at their
particular WFO or common problems found throughout the NWS network of forecast offices.
Local research is also a useful tool in training staff on various aspects of the local climatology,
such as the probability of precipitation.

During our inspection, we asked management in the WFO to provide us with all of the research
conducted by office staff. We used what was provided to us for our analysis of this issue. In
addition, although we consider many of the activities noted in the agency’s response to be
important and even essential to the office’s ability to provide sound forecasts to its county
warning area, we, and apparently the WFO managers, do not consider them to meet the criteria
for local research projects. In fact, on the WFO’s homepage, it lists its “Local Research and
Studies.” Developing help binders and AWIPS focal point’s tasking to implement system
patches and configure AWIPS software are not listed. In fact, we reviewed a sample of research
listings from various WFOs, including others in the Southern Region. None of the offices we
reviewed included such items on its list of local studies and research. In addition, although one
WFO we sampled conducted six local studies during the two-year period, they involved eight
WFO staff members and the office had a detailed research plan; this is compared to only three
staff members completing studies in San Angelo and the WFO not having a research plan.

B.     Office has only recently implemented a structured training program

The San Angelo WFO did not have a structured training program until just before our visit when
professional development plans were prepared for all employees. While some office employees
thought that they have received enough training, most believed that a more systematic approach
to individual training was needed. Employees stated that they participate in seasonal “drills” for
winter weather, severe weather, and fog. However, while the training officer has worked up
these useful drills for the meteorologists, employees stated that training has not focused on all of
their individual needs to improve their job performance and potentially advance their careers.

NWS has emphasized the importance of training programs for its employees for many years to
maximize employee proficiency and potential. In 1998, NWS began preparing a National
Strategic Training and Education Plan to support field training and education requirements with
easily accessible, usable, and effective training materials. The plan establishes NWS’s overall
training requirements and defines the required knowledge, skills, and abilities needed by NWS
forecasters and other employees to successfully perform their jobs. However, the WFO’s
employees emphasized that other than the office drills, the office lacks an overall plan or
approach to training. They stated that this has resulted in insufficient training in areas such as
AWIPS, the CRS, UNIX software, security, and hydrology. Although the office’s training
officer believes the training needs of the staff are being adequately addressed, WFO staff
believed the officer concentrated primarily on computer-related issues and seems to have little
time to address their training needs. As a result, some employees pursue training videos and
classes on their own. If there is new hardware or software to learn, employees reportedly learn it
on the job.



                                                 14 

U.S. Department of Commerce                                                                 Final Report IPE – 13531 

Office of Inspector General                                                                                June 2001 



The MIC agreed that office personnel need more training. She told us that she has tried to direct
office staff to training and encouraged them to read meteorological and hydrological studies and
reports. She emphasized that not all staff members are interested in receiving training. She also
indicated that while no local university has a meteorological or hydrological program, CD-ROM
and tele-training17 is available. In August 2000, she arranged for UNIX training for some
personnel from the San Angelo, Corpus Christi, and Midland WFOs.

The training officer also agreed that employees need individual training plans. The Southern
Region recently issued a Regional Operations Manual Letter suggesting that yearly training
plans, developed in collaboration with the SOO and others, would be very helpful.18 As a result,
the MIC and the training officer recently prepared a template 2001 Professional Development
Plan and requested that each employee complete it.

The plan should document each employee’s required training, such as office drills. It should also
outline elective training and professional development, such as video or tape-based training,
research papers, and outreach activities. For elective training and professional development
activities, the plan has a list of proposed activities with assigned point totals. Staff members
were asked to submit a signed plan that identified training courses, development activities, and
yearly point goals by December 15, 2000. Although most staff members stated that Professional
Development Plans were needed and beneficial, they were uncertain how or whether
management would use the plans when preparing their performance appraisals.

The Southern Region recently issued a revised training guideline for the region’s WFOs.19 It
states that local managers are responsible for employee training and that training plans would be
helpful in identifying where further professional development is needed. Because the WFO
employees told us that they were confused with the new plans, the office MIC needs to clarify to
all staff members how the new plans will be used and interpreted during fiscal year 2001. The
MIC should then ensure that appropriate training, based on their plans, is provided to WFO staff.



In the agency’s response, NOAA officials agreed with our recommendation, stating “the new
professional development plans will be discussed with each employee during the April 2001
mid-term performance reviews.

However, NOAA also noted, “While it is true the WFO was in the process of putting into place a
new professional development and training program about the time of the IG’s visit, the WFO
had previously been conducting significant training activities.” The response also includes a list
of training activities in San Angelo since 1998.

17
     Tele-training allows an NWS instructor to train multiple individuals over the phone.
18
     Training Policies and Procedures, Southern Region ROML S-09-2000, October 5, 2000.
19
     Southern Region ROML S-09-2000, “Training Policies and Procedures,” updated and replaced S-02-96.



                                                            15 

U.S. Department of Commerce                                                Final Report IPE – 13531 

Office of Inspector General                                                               June 2001 



As we state in the report, office personnel have received meaningful training. However, the
office only recently developed a structured training program and some staff training needs have
gone unmet.

After reviewing the list of training provided in the agency’s response, it is worth noting that (1)
there were few, if any, classes in some of the areas noted in the report, such as UNIX, hydrology,
and IT security; (2) many of the classes were held over two years ago or subsequent to our visit;
and (3) many of the training classes were employee-initiated—not a result of a training plan.




                                                16 

U.S. Department of Commerce                                               Final Report IPE – 13531 

Office of Inspector General                                                              June 2001 



III.   Greater Regional Oversight of WFO Is Needed

As part of our review, we examined certain aspects of the NWS Regional Office’s management
and oversight of the San Angelo WFO. Specifically, we inquired about steps taken by managers
in the Southern Region to address the WFO staff’s concerns about management practices and
provide regular oversight of WFO operations, management, and administrative support. This
included a look at the types and frequency of station inspections conducted by the regional
office.

The Southern Region managers hold periodic conference calls with the MIC and have visited the
San Angelo office on six occasions between January 1994 and the time of our visit. These visits
included a station inspection in 1994, an administrative review in June 1996, and an inspection
of San Angelo’s weather observation program by the staff from the Corpus Christi WFO in
February 1998. Station inspections are internal NWS reviews that, among other things, evaluate
WFOs’ adherence to NWS policies in various areas, including reviews of systems and
equipment, the upper air program, and surface observations.

Despite these visits, during our inspection we observed several conditions that suggest a lack of
adequate regional oversight. These include (1) continuing conflicts between management and
staff that could undermine office operations; (2) until just before our visit, the station duty
manual had not been updated for 7 years; and (3) the WFO’s Probability of Precipitation
statistics are below the Southern Region average, as discussed on page 5.

Office morale and turnover have been a problem

Regional officials failed to address turnover and the staff’s report of low morale. San Angelo
personnel claimed that low morale was the office’s most significant and persistent problem.
Reportedly, the management style of the MIC has alienated the staff and reduced their initiative,
created a poor working environment, and allegedly contributed to some employees’ decision to
leave. We were told that the MIC has publicly criticized staff and discussed employees’
performance with other employees. While we were unable to confirm or refute these complaints
during our one-week visit, most employees discussed the tension in the office and poor
communication between the MIC and staff that could undermine office operations.

Office personnel also stated that personnel turnover has been a growing problem over the last
two years. Mountain Administrative Support Center officials informed us that the San Angelo
office lost 6 individuals from August 1998, to December 2000. Current and former personnel
told us that the office environment was one reason that some former employees left the office.
Current and former San Angelo personnel believe that all office managers should receive basic
management training in appropriate areas, including conflict resolution, human resource
management, and sensitivity training. We agree.

The MIC told us that office morale has generally been adequate and that the employees work
well together as a team. She admits that she has had to be critical of some employees’



                                                17 

U.S. Department of Commerce                                                    Final Report IPE – 13531 

Office of Inspector General                                                                   June 2001 



performance because she believes that some of the staff have not yet successfully transitioned
from a smaller Weather Service Office to the larger WFO environment.

Even though regional office records show that regional staff in Fort Worth visited the San
Angelo WFO on six occasions since 1994 and regional staff informed us that that were aware of
some of the noted issues and problems, certain problems have persisted. Given the number and
nature of problems noted above, we believe regional representatives should maintain effective
communications with both WFO management and staff and take whatever actions are necessary
to improve working relationships in the office.

Before our visit, the station duty manual had not been updated for 7 years

Station duty manuals are instructions describing how local operations and emergency procedures
are to be accomplished.20 Specifically, the manual documents the office’s standard operating
procedures, all WFO tasks, and most conceivable situations that may confront the WFO. The
manual’s topics range from issuing warnings and ordinary forecasts to responding to power
outages and other emergency situations. The station duty manual in San Angelo was 7 years old
before it was updated just before our visit. San Angelo’s manual reflected a small office with
only six employees, whereas the WFO had 24 employees at the time of our visit. Managers in
the Southern Region should have been aware of this. While MICs are primarily responsible for
maintaining station duty manuals, regional managers and staff should periodically visit WFOs to
review management, technical, and administrative operations. Specifically, as part of their
oversight, regional management should ensure that station duty manuals are updated annually.

                                         -----------------------------------

After our visit to San Angelo, the regional director indicated to us that he has implemented a
“Visitation Program” for the Southern Region and provided us with his memo to the southern
region MICs, hydrologists-in-charge, and division chiefs, dated July 28, 2000, notifying them
that the program would begin during fiscal year 2001. Attached to the memo was a list of senior
regional managers and the field offices for which they were responsible. The memo, however,
did not include a schedule for the visits, or include any discussion of how visits should or would
be prioritized. The memo did state that the agendas for the visits would be based on the needs of
the particular office being visited.

We believe that in addition to program and administrative reviews, regional managers’ visits
should address other priority issues, such as management and employee concerns, and, where
appropriate, take corrective actions to address. Lastly, WFO staff and management should be
encouraged to more candidly discuss with regional managers those lingering concerns they have
that cannot be or are not addressed at the local level.



20
     “Station Duty Manual,” Chapter A-13, Weather Service Operations Manual.



                                                         18 

U.S. Department of Commerce                                                Final Report IPE – 13531 

Office of Inspector General                                                               June 2001 





In the agency’s response, NOAA states that regional officials visited the San Angelo office twice
in 1996, twice in 1997, once in 1999, and twice thus far in 2001. According to NOAA’s
response, on one of the visits in 1996, the chief of the region’s Administrative Services Division
conducted an administrative review.

Prior to our visit to San Angelo, we requested all reviews conducted by the regional office of San
Angelo within a two-year period. Regional officials gave us only one review: a station
inspection conducted by staff from the Corpus Christi WFO. We then asked for the last review
conducted by a regional office official. We were given the station inspection that was conducted
in January 1994.

During our visit to San Angelo, we specifically asked the staff when the last time someone from
the regional office visited the WFO. Overwhelmingly, the staff stated that it was at least four or
five years ago. Others could not remember when.

On December 11, 2000, after returning from San Angelo, we conducted a teleconference with
the regional director and four of his senior managers. We asked them when was the last time
someone visited the WFO in San Angelo. Neither the regional director nor the other attendees
could recall a prior visit.

On December 19, 2000, we had a teleconference with the regional director and the chief program
officer. Once again, we requested the most recent visits to San Angelo by regional officials. We
were told by the chief program officer “we have no record of a visit by regional staff since the
January 1994 station inspection.”

Lastly, we raised this issue at our exit conference. Present at the exit conference was the
Assistant Administrator for the National Weather Service, other senior NWS headquarters
officials, and, via teleconference, the regional director for the Southern Region and the region’s
chief program officer. At no time during that meeting were any of the visits outlined in NOAA’s
response mentioned, including when we specifically discussed the issue of regional oversight
and field visits.

On June 10, 2001, NOAA officials were able to provide documentation supporting all of the
claimed visits except the October 1997 visit. However, we remain concerned that despite the
regional staff’s admitted knowledge of some of the problems noted in the report, the problems
persisted. We believe that management reviews and oversight visits should be well documented,
and a plan for follow-up action should be prepared to help ensure that WFO problems or
shortcomings are adequately monitored and addressed. The region provided little documentation
to show that this was done in the past to ensure effective oversight of the San Angelo WFO.




                                                19 

U.S. Department of Commerce                                                              Final Report IPE – 13531 

Office of Inspector General                                                                             June 2001 



IV.        Dyess Air Force Base’s Radar Availability Is Below Operational Standards

The availability of the Air Force radar used by the San Angelo office is below NWS, Department
of Defense, and Department of Transportation standards. The San Angelo office uses both the
Air Force and NWS radar for coverage of its county warning area. The Air Force radar used by
the San Angelo office is located at Dyess Air Force Base. When the Dyess radar is not
operational, San Angelo staff use other NWS radars for backup. However, because these radars
are at different locations, the WFO radar coverage is less than that provided when the Dyess
radar is working. According Dyess officials, in calendar year 2000, the Air Force radar was
available 92.2 percent of the time,21 which is below the 96.0 percent minimum operating
standard for all NEXRAD22 radars.

In 1984, NWS and the Departments of Defense and Transportation implemented a tri-agency
maintenance agreement for all NEXRAD systems. The agreement specified that each agency
would maintain its own radars; a centralized hardware and software support center, as well as a
centralized maintenance depot, would be established; and operational availability of all
NEXRAD radars would be at least 96 percent.23 A National Research Council study emphasized
in 1995 that all NEXRAD radars should be properly maintained or national radar coverage
would be degraded.24 The council was concerned that Defense Department radars might not
operate with the same “standards, quality, and availability” as the other NEXRAD radars.

The program manager at Dyess Air Force Base compiles radar availability statistics and provides
them to the national Radar Operations Center.25 The program manager confirmed that the Dyess
radar did not meet the required 96 percent operational availability for most of 2000, with
availability rates as low as 70.4 percent in one month.

According to NWS personnel, NOAA’s National Logistics Support Center in Kansas City
provides parts and materials for all NEXRAD radars. The center allows Defense sites to quickly
requisition and receive radar parts, and therefore quickly repair and restore radars to operational
availability. However, Defense sites such as Dyess Air Force Base cannot directly requisition
21
  We received conflicting data from Defense personnel documenting the Dyess radar availability in 2000 and from
NWS’s Radar Operations Center, primarily for the months of January and July. The data obtained from Dyess
showing 92.2 percent availability included detailed descriptions of problems occurring during each month and, for
the months in question, the number of days the transmitter was down awaiting parts.
22
 The National Weather Service, the Department of Defense, and the Department of Transportation operate 158
Next Generation Weather Radars as part of a tri-agency network providing nationwide weather support.
23
  Operational availability is total operating and standby time that requires downtime, corrective maintenance time,
logistics delay time, and administrative delay time.
24
     Assessment of NEXRAD Coverage and Associated Weather Services, National Research Council, June 1995.
25
 In 1988, the NEXRAD agencies established the Radar Operations Center in Norman, Oklahoma. The center has
130 employees from NWS, the Air Force, the Navy, and the Federal Aviation Administration, and support
contractors, for centralized radar meteorological, computer software, maintenance, and engineering support.



                                                         20 

U.S. Department of Commerce                                                                                                        Final Report IPE – 13531 

Office of Inspector General                                                                                                                       June 2001 



parts and materials from the center. Figure 3 outlines the requisitions process for NWS and the
Departments of Defense and Transportation to order parts from the support center.


                                 Tri-Agency Acquisition Process

                                                                  Defense Air Logistics
                                                                     Center (Utah)




                                                                                                     D d dr
                                                                                                      ef es
                                                                                                       A
                                              ts




                                                                                                        en si
                                            es




                                                                                                          s e ng
                                       qu                            PROCESSING
                                     Re




                                                                                                             A Sy
                                                                                                              ut s
                                se




                                                                                                                om tem
                          f   en




                                                                                                                  ate
                        De




                                                                                                                     d
                                                                                                                    NOAA
             Air Force Base                                                                                         Headquarters
                                                   Requests for repairable parts and material
             WFO
             FAA                                                                                                    PROCESSING


                                                                                                                              SC
                      Par
                         ts a                                                                                           o   NL
                                nd                                                                                   dt
                                     ma                            National                                    e   ye
                                       ter                         Logistics                                nv
                                             ials                                                    s   co
                                                    shi            Support Center                est
                                                          pp e                                 qu
                                                              d                           Re

                                                                   SHIPPING




Figure 3


NWS personnel stated that the support center’s portion of the acquisition process has been
significantly streamlined over the last several years. For example, Figure 3 shows that Defense
requests are simultaneously sent to Defense’s logistics center and NOAA. Consequently, NWS
officials emphasized that the average completion time for routine requests is 50 hours, while the
average for emergency requests is about 11.5 hours.26 NWS personnel believe that these
response times should allow Defense and other customers to adequately maintain their
equipment. Knowledgeable defense personnel cited delays in the Defense Department’s
acquisition approval process and local problems in maintaining the Dyess radar as reasons for the
decreased radar operational availability.

They emphasized that although NOAA’s system has been streamlined, getting Defense
requisitions reviewed and approved for system input has been an ongoing problem. Defense
personnel stated that turnover and inexperience of base personnel sometimes delay the
requisitions process.

26
  Calculation of response time starts when an electronic requisition is received at NOAA headquarters in Silver
Spring, Maryland, and ends when an item leaves the shipping dock at the support center.



                                                                                    21 

U.S. Department of Commerce                                                Final Report IPE – 13531 

Office of Inspector General                                                               June 2001 



Defense personnel also cited other problems occasionally contributing to the downtime of radars.
Specifically, the Defense-maintained radars lack backup systems, some bases lack on-site
operations personnel, commercial carriers have restrictive pick-up and delivery times for
necessary replacement parts, and the Defense Automated Addressing System has operational
limitations. They stated that if certain parts are not available on a base, base personnel
sometimes request parts and materials from other bases rather than use the support center. They
emphasized that requesting parts from other bases takes longer and parts can sometimes be sent
to the wrong base if the request has been incorrectly coded. Defense personnel stated that all of
the above problems were recently reviewed.

Department of Defense officials stated that the specific problems with the Dyess radar include
ongoing problems with the radar’s air conditioning, ductwork, and power supply that have
reduced the radar’s operational availability. They stated that the Radar Operations Center (ROC)
in Norman, Oklahoma, has sent specifications to replace the air conditioning system and install
new interior ducts. They emphasized that these improvements need to be performed so this radar
can effectively assist the San Angelo office with its radar coverage. The NWS should continue
to work with Defense officials to complete the timely repair of radar equipment and to help
maintain its continuing availability.



In their response, agency officials stated “The NWS Radar Operations Center will continue to
work with DOD for timely repair of all DOD radars, including the Dyess WSR-88D.” They
emphasized that this responsibility lies with the ROC and not with the region or the WFO. We
agree.

The ROC indicates that in calendar year 2000, the Dyess radar was available 95.8 percent of the
time. The percentage we use in the report, 92.2 percent, came directly from officials at Dyess
Air Force Base. We also received data from the regional office that indicated that the data
availability for the radar during the period November 1999 thru October 2000 was 93.9 percent.
Additionally, the issue was brought to our attention by San Angelo staff, who were concerned
about what they considered to be a significant problem with the radar’s availability.

Although better than the 92.2 percent availability rate used in our report, data provided in the
agency’s response shows that radar availability is still slightly below the agreed upon standard.

Considering the conflicting information provided by Dyess Air Force Base officials and the
NWS in its response, we request that agency officials provide documentation to support the
availability statistics used in their response. We also request agency officials to determine why
there is a discrepancy and which availability percentage is correct. If the radar is not actually
available as much as the ROC’s data might indicate, then NWS may wish to give more attention
to the problem.




                                                22 

U.S. Department of Commerce                                                Final Report IPE – 13531 

Office of Inspector General                                                               June 2001 



V.     Internal Controls Are Adequate, but Improvements Are Needed in Some Areas

Although we found most of the San Angelo WFO’s administrative operations were well
managed, we identified a few areas that warrant management attention. Specifically,
(1) information technology controls are improving but need more attention, (2) the new station
duty manual can be improved, (3) the focal point responsibilities should be better communicated
to staff, and (4) quality control procedures are not being consistently performed.

A.     Most administrative activities are well controlled

We reviewed office policies and procedures for management of inventory, supplies, bankcards,
procurement, time and attendance, travel, and security. We found adequate controls over most of
these areas and well-maintained documentation. We conducted a sampling of items on the
inventory list and were able to identify all the items selected. We also compared a sample of
accountable property in the office with the inventory list and found no reason to question the
accuracy or completeness of the inventory list. We physically accounted for all of the lap-top
computers, other visual aids, and the copier and fax machines. We also randomly selected other
items on the inventory list, such as cameras, and verified that they are in the San Angelo WFO
and have the proper inventory labels.

At the time of our visit, the San Angelo WFO had four official government vehicles for
maintaining NWS field equipment and facilitating outreach efforts:

��	 One is used by the electronic systems analyst to maintain surface observation equipment.

��	 Another is used mostly by the Cooperative Observer program manager to make field visits
    for maintenance and repair of equipment.

��	 A third is used by the data acquisition program manager and the MIC.

��	 The fourth is used by the warning coordination meteorologist primarily for outreach
    activities.

The hydrometeorological technician in the Abilene satellite office also had a vehicle until the
office closed in December 2000. This vehicle is now used by the San Angelo WFO, increasing
the total to five.

The MIC implemented a vehicle log system only two weeks prior to our visit, thus we were
unable to adequately assess whether the vehicles were being used for only official government
business and whether the WFO actually needs five vehicles based on usage data. According to
the MIC, the logs were created as a result of findings and recommendations made in our earlier
inspection report on the Raleigh WFO. The MIC should periodically review the logs to ensure
that the vehicles are being used in an appropriate manner and to determine whether there is a
demonstrated need for the current number of vehicles.



                                               23 

U.S. Department of Commerce                                                  Final Report IPE – 13531 

Office of Inspector General                                                                 June 2001 



The time and attendance records were also well maintained, but there are some questions about
whether leave is being properly accounted for by those not working shifts. Staff who work on
the rotating shifts are easily accounted for because there are only three employees working on
each shift and they are listed on the schedule. If someone cannot work an assigned shift, the
replacement employee’s name is inserted on the schedule and initialed. There are, however,
several employees in the San Angelo WFO whose time worked is not documented daily on a
schedule. The office does not currently have a policy requiring employees to sign in and out.

Although we found no documented evidence of the alleged time and attendance abuse, it should
be noted that some employees expressed concern about the propriety of how some staff report
their time and attendance. To address these concerns, the Regional Director should closely
monitor this situation to ascertain what, if any, changes or additional safeguards are needed to
better document time and attendance for at least San Angelo WFO employees who are not
working a rotational shift. A schedule is maintained for shift employees, but there is no such
documentation for others. Implementing a sign-in/sign-out sheet for non-shift workers would
allow the MIC to know when any employee is in or out of the office. Although we understand
that it is not NWS policy to require employees to sign in and out, several WFOs reportedly use
such a system to effectively manage time and attendance. For example, the WFO in Raleigh has
a sign in and out system that appears to work well.



In its response, NOAA reported that the MIC periodically reviews the vehicle logs and based on
her review and the office’s vehicle needs, the MIC decided to surplus the vehicle previously used
at the Abilene office. NOAA reported that it was turned back to GSA on March 20, 2001.

In the agency’s response, agency officials stated that they choose not to implement a sign-
in/sign-out system for non-shift workers because there is no indication it is needed. They also
stated that Raleigh does not use a sign-in/sign-out system for time and attendance purposes.

We disagree that there is no indication that a system is needed. While we were in San Angelo,
some employees raised serious questions about possible leave abuse. The fact that questions
were raised about possible leave abuse indicates that some type of system that better documents
the time of non-shift workers might be needed. Additionally, Raleigh officials informed us that
the office maintains a sign-in/sign-out board to indicate whether non-shift workers are in the
office, out to lunch, or on a business trip; they also use a leave log for employees arriving late or
leaving early.

Agency officials should reconsider our recommendation to implement a system that will better
document the San Angelo staff’s time and attendance.

B.     IT controls are improving

The San Angelo office had just begun to implement NWS’s information technology (IT) security
policies when we arrived there. The office’s IT security officer was designated as such in


                                                 24 

U.S. Department of Commerce                                                    Final Report IPE – 13531 

Office of Inspector General                                                                   June 2001 



C.         New station duty manual can be improved

After we announced our inspection in September 2000, San Angelo personnel hurriedly updated
the WFO’s March 1994 station duty manual. During our inspection, employees complained that
the office had lacked a station duty manual to outline policies and procedures for the office’s
current operations and emergencies.

As noted on page 18, NWS policy requires all WFOs to annually review station duty manuals
and review appropriate station duty manual chapters before each weather season.33 However,
San Angelo’s manual had been severely outdated and incomplete. Without an updated version,
office personnel lacked a single, definitive source of information for daily and emergency office
operations. For example, office personnel stated that when some telephone, telecommunications,
and system problems occurred, they did not know what to do or whom to call. The office should
have performed required tests of backup and contingency procedures outlined in the station duty
manual to address such emergencies.

While each office employee has read the current station duty manual, it takes time for all office
tasks and operations to be incorporated and employees to understand a new manual. Office
personnel followed the outline for station duty manuals suggested by NWS guidelines.34
However, even after reading the new manual, some employees stated that they still do not
understand some tasks, such as how they would shut down all computer systems in an orderly
fashion. As a result, office employees believe that the new manual needs to be improved and
refined. We agree.

We believe that all office personnel need to review and the MIC should revise the new station
duty manual in six months, if needed, rather than waiting for the yearly review. Office
personnel, including the MIC, agreed that updating the station duty manual sooner would benefit
office operations.



The agency’s response states that their records indicate that the WFO has been performing
intraoffice and community drills. The response goes on to list the drills, their dates, and the
number of participants. While we recognize that certain drills have been performed, some
employees were still confused about what to do in emergency situations, primarily because of the
outdated station duty manual. We have adjusted our recommendation.

Agency officials concurred with our recommendation to direct all office personnel to read the
new station duty manual and revise it, if necessary, in six months rather than wait for the yearly
review. They stated that on “March 26, 2001, the MIC instructed the staff to review the manual

33
     “Emergency Drills,” Chapter A-17, Weather Service Operations Manual.
34
     “Station Duty Manual,” Chapter A-13, Weather Service Operations Manual.



                                                        27 

U.S. Department of Commerce                                                           Final Report IPE – 13531 

Office of Inspector General                                                                          June 2001 



at an interim six-month period in addition to the annual review in 2001.” Officials went on to
say, “In addition, as sections of the manual are revised, employees are required to read the
revised sections and initial that it has been done.”

D.      Focal point responsibilities should be better communicated to staff

Each weather forecast office is tasked with issuing forecasts and warnings and maintaining
equipment. All office personnel perform or support these tasks through numerous “focal point”
duties, such as fire weather duties, property management, office intranet maintenance, IT
security, forecast quality control, Storm Data35 input, and cooperative observer duties. Focal
point duties improve the quality of office products and overall office operations. Forecast office
personnel fulfill focal point responsibilities as team members or as the primary or secondary
individuals to contact. However, we found that San Angelo personnel had not been officially
tasked with all primary and secondary focal point duties until we announced our inspection of
the office. Although the MIC stated that an informal list of duties had existed, she could not find
a copy of the list.

The MIC confirmed that written documentation, including a focal point list, had not been
properly prepared. Because focal point duties had only been recently documented, some office
personnel had just determined or confirmed what primary or secondary duties they had been
assigned. For example, some staff members were only informally responsible for quality control
of different office products. As a result, a systematic process of quality control had not been
implemented. (See below for a detailed discussion of this issue.) Some office personnel also
were unaware who their backups were or unaware that they had been assigned backup
responsibility. Staff emphasized that the lack of an updated list of primary and secondary focal
point duties and an updated station duty manual (as previously discussed) contributed to the
WFO’s lack of a systematic process of quality control. The MIC needs to ensure that all office
employees understand and are prepared to handle each of their primary and secondary focal point
duties.



Agency officials concurred with our recommendation and stated in their response that focal point
responsibilities have been incorporated in the Station Duty Manual.

E.      Quality control needs to be more systematic

We found that the San Angelo staff were not performing systematic quality control reviews of
office products before and after they were issued. Office personnel stated that they only
occasionally ask other personnel to proof daily products. Consequently, some office products
have been issued with improper information. In addition, the CRS requires a lot of oversight to

35
  Each WFO submits monthly data into the national Storm Data database to document its verification efforts for
severe storms and tornadoes.



                                                       28 

U.S. Department of Commerce                                                      Final Report IPE – 13531 

Office of Inspector General                                                                     June 2001 



ensure that accurate products are issued to the public. While office personnel believe that the
overall quality of office products has been adequate, they emphasized that the accuracy and
completeness of products can be improved with a more consistently applied quality control
program.

The Weather Service Operations Manual provides WFOs with general requirements for the
quality control of products.36 The manual states that each office should establish quality control,
consisting of training on the operational use of update criteria, proper coding, and clear wording
of products. Specifically, quality control of products is a two-part process. WFOs must review
forecasts and warnings before issuance for correct information, format, and spelling. After
issuance, WFO staff must verify and review forecasts and warnings for accuracy and for future
improvement.

Office personnel cited examples where product errors were overlooked. In one example, a
tornado warning was issued as a severe thunderstorm warning, and an updated weather statement
was issued as a severe thunderstorm warning. They also stated that some products are too wordy
and do not adequately describe upcoming weather. In addition, problems with the CRS have
caused errors, including forecasts with extra words, missing words, sentence fragments, words
that are not in the CRS dictionary and that the system cannot pronounce properly, and redundant
messages.

Office personnel stated that because CRS reads and issues text exactly as the forecasters write it,
the system requires human intervention to keep the programming accurate and understandable to
the public. While office personnel told us that there have been problems with the equipment and
quality control since CRS was installed, they have been working to improve the quality control
of products. To maintain quality control, office personnel emphasized that both forecasters and
hydrometeorological technicians need to spend more time reviewing all products that are issued.

The San Angelo WFO needs a formal quality control program to adequately review office
products before and after they are issued. Specifically, the MIC needs to emphasize to all
forecasters and hydrometeorological technicians that products must be reviewed, and an ongoing
quality control system should be implemented. The MIC has taken steps to improve quality
control. The office’s 2001 Operating Plan states that the office will implement a quality control
program specifically aimed at development of forecast effectiveness, especially in the public
products area. Implementation of such a plan should improve quality control over the office’s
products. Regional oversight visits should ensure that such progress on quality control of San
Angelo’s weather forecast products is achieved.




36
 “Severe Local Storm Watches, Warnings, and Statements,” Chapter C-40, Weather Service Operations Manual.
“National Watch/Warning Verification Program,” Chapter C-72, Weather Service Operations Manual.



                                                    29 

U.S. Department of Commerce                                               Final Report IPE – 13531 

Office of Inspector General                                                              June 2001 





Agency officials did not concur with our recommendation to implement an ongoing quality
control system. NOAA’s response notes that the shift supervisor is assigned the responsibility to
monitor, either personally or by delegation, the quality of products issued during the shift. The
response also stated that the WCM reviews products issued by the WFO. Lastly, it states that
focal points are tasked with quality control of the products issued in their specialty area.

While we agree that the overall quality of the products issued by the San Angelo WFO is good
and the office staff have a responsibility to employ a system of quality control, we were told by
staff—those responsible for implementing the quality control system—that the office does not
consistently use that system. There were no checks and balances in place to ensure that the
system was implemented. As our report notes, the San Angelo staff were not performing
systematic quality control reviews of office products, and we were provided examples of product
errors that were overlooked. In addition, because the controls are not consistently applied, staff
cannot be certain how many mistakes were made. Therefore, we reiterate our recommendation
that the NWS officials implement an ongoing quality control system for weather forecast
products and emphasize to all forecasters and hydrometeorological technicians that products
must be reviewed for quality before being issued.




                                               30 

U.S. Department of Commerce                                               Final Report IPE – 13531 

Office of Inspector General                                                              June 2001 



                                   RECOMMENDATIONS


We recommend that the Assistant Administrator for NWS instruct the Regional Director to take
the following actions:

1. 	   Determine why the office’s Probability of Precipitation statistics have not kept pace with
       other offices in the Southern Region and take corrective actions, if necessary (see
       page 5).

2. 	   In addition to program and administrative reviews, regional management should address
       other priority issues during site visits, such as management and employee concerns.
       Documentation and a follow-up system to track corrective actions should be put in place
       to ensure that problems and concerns noted during oversight reviews are addressed (see
       page 17).

3. 	   Encourage WFO staff and management to discuss with regional managers any concerns
       they have that cannot be or are not being addressed at the local level (see page 17).

4. 	   In conjunction with the MIC, continue to work with Defense officials to complete the
       timely repair of the Dyess Air Force Base radar equipment and help maintain its
       continuing availability (see page 20).

We recommend that the Assistant Administrator for NWS instruct the MIC to take the following
actions:

1. 	   Develop a detailed research plan and specific project assignments to encourage the staff
       in San Angelo to participate in local studies and research and provide support and
       constructive criticism to staff on such projects, when needed (see page 12).

2. 	   Clarify to all staff members how the new professional development plans will be used
       and interpreted during fiscal year 2001 and ensure that appropriate training, based on
       their plans, is provided to WFO staff (see page 14).

3. 	   Periodically review the vehicle log to ensure that official vehicles are being used in an
       appropriate manner and to determine whether there is a demonstrated need for the current
       number of vehicles. Unneeded vehicles should be surplused (see page 23).

4. 	   Take appropriate measures to bring the WFO’s information technology security into
       compliance with NWS standards. This includes complying with the office’s newly
       developed IT security plan and having (1) the office security officer periodically revise
       system passwords; (2) the office security officer and electronics systems analyst prepare
       an updated software inventory; (3) office personnel test the WFO’s backup and
       contingency procedures as soon as possible; (4) the office security officer send the IT
       Security Plan, Risk Analysis, and Disaster Recovery Plan to the NWS security officer,
       NOAA security officer, and the Department of Commerce Security Manager; and (5) the


                                               31 

U.S. Department of Commerce                                                Final Report IPE – 13531 

Office of Inspector General                                                               June 2001 



       office security officer revise the risk analysis to document risk of outside intrusion and
       any other potential risks (see page 24).

5. 	   Direct all office personnel to read the new station duty manual and revise it, if necessary,
       in six months rather than wait for the yearly review (see page 27).

6. 	   Ensure that all office employees understand and are prepared to handle each of their
       primary and secondary focal point duties (see page 28).

7. 	   Implement an ongoing quality control system for weather forecast products and
       emphasize to all forecasters and hydrometeorological technicians that products must be
       reviewed for quality before being issued (see page 28).




                                                32 

U.S. Department of Commerce                      Final Report IPE – 13531 

Office of Inspector General                                     June 2001 



                              AGENCY RESPONSE





                                     33 

U.S. Department of Commerce          Final Report IPE – 13531 

Office of Inspector General                         June 2001 





                              34 

U.S. Department of Commerce          Final Report IPE – 13531 

Office of Inspector General                         June 2001 





                              35 

U.S. Department of Commerce          Final Report IPE – 13531 

Office of Inspector General                         June 2001 





                              36 

U.S. Department of Commerce          Final Report IPE – 13531 

Office of Inspector General                         June 2001 





                              37 

U.S. Department of Commerce          Final Report IPE – 13531 

Office of Inspector General                         June 2001 





                              38 

U.S. Department of Commerce          Final Report IPE – 13531 

Office of Inspector General                         June 2001 





                              39 

U.S. Department of Commerce          Final Report IPE – 13531 

Office of Inspector General                         June 2001 





                              40 

U.S. Department of Commerce          Final Report IPE – 13531 

Office of Inspector General                         June 2001 





                              41 

U.S. Department of Commerce          Final Report IPE – 13531 

Office of Inspector General                         June 2001 





                              42 

U.S. Department of Commerce          Final Report IPE – 13531 

Office of Inspector General                         June 2001 





                              43 

U.S. Department of Commerce          Final Report IPE – 13531 

Office of Inspector General                         June 2001 





                              44 

U.S. Department of Commerce          Final Report IPE – 13531 

Office of Inspector General                         June 2001 





                              45 

U.S. Department of Commerce          Final Report IPE – 13531 

Office of Inspector General                         June 2001 





                              48 

